                            SOCIAL SECURITY
                            Office of the Inspector General

                                     July 14, 2010


The Honorable Claire McCaskill
United States Senate
Washington, D.C. 20510

Dear Senator McCaskill:

In an August 4, 2009 letter, you asked that we conduct a review regarding Office of
Disability Adjudication and Review (ODAR) hearing request dismissals to ensure that
disabled individuals are afforded the rights and protections required by law and
regulations. To address your request, we examined dismissal rates and determined
whether ODAR followed applicable policies and procedures in dismissing hearing
requests.

I appreciate the opportunity to share our insights on this important matter. As discussed
in the enclosed report, we found improvements could be made for dismissing hearing
requests. Our review also identified unsupported variances in dismissal rates among
ODAR’s regions, hearing offices, and administrative law judges. In a separate report,
we plan to make recommendations to the Social Security Administration that will
address the issues identified in this review.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison at (202) 358-6319.

                                                      Sincerely,




                                                      Patrick P. O’Carroll, Jr.
                                                      Inspector General

Enclosure

cc:
Michael J. Astrue




             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

Office of Disability Adjudication and
Review Hearing Request Dismissals

            A-07-10-21049




              July 2010
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                   Background
OBJECTIVE
Our objective was to address the request of Senator Claire McCaskill regarding Office
of Disability Adjudication and Review (ODAR) hearing request dismissals. Specifically,
we examined dismissal rates and determined whether ODAR followed applicable
policies and procedures in dismissing hearing requests.

BACKGROUND
ODAR is responsible for holding hearings and issuing decisions as part of the Social
Security Administration’s (SSA) process for determining whether a person may receive
benefits. ODAR directs a nation-wide field organization staffed with administrative law
judges (ALJ) who are tasked with conducting impartial hearings and making decisions
on appealed determinations involving Old-Age, Survivors and Disability Insurance
benefits (Title II) and Supplemental Security Income payments (Title XVI).

Regulations specify conditions under which an ALJ may dismiss a claimant’s request for
hearing (see Appendix C). 1 In Fiscal Year (FY) 2009, ODAR issued dispositions on
660,842 hearing requests, of which 103,071 (16 percent) were dismissals.

In an August 4, 2009 letter, Senator McCaskill requested that we review dismissals of
hearing requests to ensure disabled individuals are afforded the rights and protections
required by law and regulations. The Senator also requested we determine whether
there are any unusual dismissal trends by individual ALJs or by regions.

To address Senator McCaskill’s request, we performed case review analysis on
selected hearing request dismissals to determine whether there was documentation to
support the dismissal. In addition, we examined dismissal rates by region, hearing
office, and ALJ.




1
    20 C.F.R. §§ 404.957 and 416.1457.


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)   1
                                                        Results of Review
We reviewed three dismissal types to determine whether ODAR followed applicable
policies and procedures in dismissing hearing requests. First, we analyzed ALJ
dismissals for untimely hearing requests, as requested by Senator McCaskill. In
addition, we reviewed the two most prevalent dismissal types: abandonment and
withdrawal. 2

We found that there were areas where improvements could be made for dismissing
hearing requests. 3 Improvements were needed most in the area of untimely hearing
request dismissals.

•     For untimely hearing requests, our review disclosed cases where dismissals were
      not (1) appropriate, (2) supported by ODAR requests for claimants’ explanations for
      untimely filing, (3) supported by an ALJ rationale, or (4) processed timely.

•     For abandonment dismissals, we found cases where the dismissals were issued
      without the necessary attempts to contact claimants documented in the case folders.

•     For withdrawal dismissals, we found one case where the claimant’s case folder did
      not contain evidence the claimant or the claimant’s representative requested the
      hearing request be withdrawn.

Our analysis of dismissal rates identified wide variances among ODAR regions, hearing
offices, and ALJs. ODAR stated that scientific or statistical data do not exist to support
an explanation of dismissal rate variances. Although ODAR stated economic and
demographic factors might explain the variances, it did not expand on those factors or
how they impact variances in dismissal rates.

We will issue a separate report to the Commissioner of SSA with recommendations to
correct the problems with hearing request dismissals found during this review.




2
    See Appendix C.
3
  We shared the results of our review with ODAR officials whose comments were incorporated in the
report, where appropriate.


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)             2
UNTIMELY HEARING REQUEST DISMISSALS
We reviewed 50 cases dismissed in FY 2009 where ODAR determined the claimant
filed the hearing request untimely, that is, not within the prescribed number of days after
the prior determination or decision. 4,5 Our review disclosed cases where dismissals
were not

•   appropriate,
•   supported by ODAR requests for claimants’ explanations for untimely filing,
•   supported by an ALJ rationale, or
•   processed timely.

Dismissals Were Not Appropriate

In 2 of the 50 untimely hearing request dismissals we reviewed, it appeared the ALJ
should not have issued an untimely hearing request dismissal.

•   One claimant filed the hearing request timely (18 days after the denial determination)
    yet the ALJ issued an untimely hearing request dismissal. 6 The claimant appealed
    the dismissal to the Appeals Council, which remanded the decision back to the ALJ.
    The ALJ subsequently issued a fully favorable decision. Because the ALJ initially
    issued a dismissal, the claimant waited an additional 393 days to receive an
    allowance decision.




4
 HALLEX I-2-0-50.C. ODAR generally considers a hearing request timely filed if it is received within
65 days of the prior determination. However, if a request is not received within the 65-day period, but the
U.S. Postal Service stamp cancellation or postmark shows that it was mailed within that period, the
postmark is used and the request is considered filed in a timely manner. If a request is received by mail
within 70 days of the date of the determination or decision, and the postmark is unreadable or there is no
postmark, the request is considered timely filed.
5
  Of the 50 untimely hearing request dismissals we reviewed, 30 claimants filed new applications for
benefits. Of the 30 claimants, 7 were allowed benefits, 6 were denied, and 17 had decisions pending at
the time of our review. In addition, four claimants appealed the dismissal to the Appeals Council. One
claimant’s case was remanded back to the ALJ who allowed benefits (this case is discussed later in this
report as an inappropriate dismissal). Two claimants’ decisions were denied by the Appeals Council, and
one claimant had a decision pending at the time of our review.
6
  During our review, we found the hearing request forms did not consistently include the date the claimant
signed the form or the date the hearing office received the form. In addition, when present, the dates on
the hearing request forms did not always correspond with the hearing request dates recorded in ODAR’s
Case Processing and Management System (CPMS). Therefore, any analysis of a hearing request date is
based on the date referenced in the Order of Dismissal signed by the ALJ and issued to the claimant.
Every Order of Dismissal we reviewed included a hearing request date, and that date appeared to be
accurate when compared to the hearing request form or the CPMS data if the hearing request form was
not dated.


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)                   3
•     Another claimant filed the hearing request untimely (112 days after the denial
      determination). However, on the hearing request, the claimant alleged she was not
      notified of her denial within the 65-day timeframe to file an appeal. After the
      dismissal was issued, the claimant provided additional evidence to the ALJ that the
      disability determination services (DDS) did not inform her of her denial until 112 days
      after the denial determination. 7 Given the new evidence, the ALJ conducted a
      hearing and issued a fully favorable decision. We could not determine whether the
      ALJ knew, or should have known, of the claimant’s situation before issuing the
      dismissal. However, the circumstances surrounding the dismissal caused the
      claimant to wait an additional 145 days to receive an allowance decision.

Dismissals Were Not Supported by ODAR Requests for Claimants’ Explanations
for Untimely Filing

For 7 of the 50 untimely hearing request dismissals we reviewed, there was no
evidence in the claimants’ case folders that ODAR requested an explanation for late
filing from the claimant (good cause). 8 Therefore, we could not determine whether
these claimants were afforded the rights granted to them by ODAR’s policy. According
to ODAR, when the field office receives an untimely filed hearing request, the field office
is instructed to obtain a written statement from the claimant explaining why they filed
late. 9 This statement is forwarded to the hearing office for evaluation by an ALJ as to
whether good cause for missing the deadline is established. If the field office does not
obtain the written statement, the hearing office is required to send the claimant a letter
requesting an explanation for late filing. 10




7
 The DDS considered the claimant a suicide risk. Therefore, the DDS planned to inform the claimant in
person that her claim was denied. However, according to the DDS, the claimant was not notified of her
denial timely because of the DDS’ workload.
8
 According to ODAR, all communication at the hearing level should be associated with a claimant’s file.
This includes notices sent to the claimant and documentation received by the hearing office. Other
contact with the claimant, via telephone or from personal visit, which could have an impact on the case
should be documented on a Report of Contact and placed in the file.
9
    SSA, POMS GN 03101.020.A.1 and B.1, DI 12010.002, and SI 04030.020.A.1.c.
10
  HALLEX I-2-0-60.C. The hearing office also sends a request for explanation for late filing if the hearing
request is filed at the hearing office and does not include an explanation. However, according to ODAR,
the majority of hearing requests are filed at a field office and not a hearing office.


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)                   4
Dismissals Were Not Supported by an ALJ Rationale

In 3 of the 50 untimely hearing request dismissals we reviewed, we could not determine
whether the ALJ considered the claimant’s good cause. Specifically, the ALJ did not
state in the Order of Dismissal why the claimant did not establish good cause for
missing the deadline to request a hearing. ODAR’s policy requires that ALJs include a
complete rationale in the Order of Dismissal explaining why the ALJ found that the
claimant has not shown good cause for late filing. 11

For example, for these three untimely hearing request dismissals, we would have
expected to see a rationale similar to one in another case we reviewed. In this case,
the claimant filed his hearing request nearly 5 months late stating he had not read the
denial notice carefully and thought he had 1 year to appeal. In the Order of Dismissal,
the ALJ gave a rationale for issuing the dismissal, stating, “The fact that the claimant did
not read his Notice of Disapproved Claim carefully does not constitute good cause for
untimely filing. The claimant is well educated (3 years of college) and clearly had the
ability to read the Notice and to follow the simple instructions provided in order to file an
appeal in a timely manner.”

Dismissals Were Not Processed Timely

For the 50 untimely hearing request dismissals
we reviewed, ODAR took between 6 and                                         Table 1
                                                                Days Between Hearing Request Date
637 days to issue the dismissal to the claimant
                                                                      and Dismissal Issuance
(see Table 1). In fact, more than half the                       Number of Days          Number of Cases
dismissals took more than 60 days. To identify                  30 days or less              11
reasons for delays in processing untimely                       31-60                        12
hearing request dismissals, we reviewed the                     61-90                          8
10 cases that took more than 120 days from the                  91-120                         9
hearing request date to the dismissal date. We                  More than 120 days           10
                                                                Total                        50
found the following.

•     Eight cases sat in the hearing office from 61 to 564 days before they were assigned
      to an ALJ for a dismissal decision. ODAR policy states cases that appear to meet
      the criteria for dismissal should be immediately assigned to an ALJ. 12 However,
      according to ODAR, cases may not be assigned to ALJs immediately because
      hearing office staff must first screen all cases to identify those that may meet the
      criteria for dismissal. Cases identified as possible dismissals may then need further
      development. For example, hearing office staff may need to request explanations
      from the claimants for filing the hearing requests untimely.

11
  HALLEX I-2-4-5.B. and I-2-4-15.B.3.b. According to ODAR, a complete rationale contains the reason
why the case meets the criteria for dismissal. If the claimant files a request for Appeals Council review of
the dismissal, a well articulated rationale will provide the Council with the ALJ’s reasoning. It will be the
basis on which to apply the review standards of substantial evidence and abuse of discretion.
12
     HALLEX I-2-1-55.D.8.


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)                     5
•     One case was assigned to an ALJ within 28 days of receipt in the hearing office;
      however, the dismissal was not issued for an additional 126 days. According to
      ODAR, under ideal conditions, it should take approximately 1 week for the ALJ to
      determine whether to dismiss a case. However, ODAR stated there are many
      unusual cases, and ALJs may need more time to adequately address the unique
      factors of each one.

•     One case was not recorded in ODAR’s CPMS as received from the SSA field office
      until 92 days after the hearing request was signed by the claimant; however, upon
      receipt, ODAR processed the case in 47 days.

According to ODAR, a specific timeframe for processing untimely hearing request
dismissals has not been established because each case has unique factors. In
addition, ODAR stated that processing time can be affected by the administrative
process as a whole, including the (1) circumstances of the hearing office, such as
workload and staffing, and (2) facts of the specific case since some cases may be ready
for immediate processing while others require additional development.

ABANDONMENT DISMISSALS
We reviewed 50 cases dismissed in FY 2009 because the claimant abandoned the
hearing, that is, the claimant did not appear at the scheduled hearing. 13,14 For seven
cases, the claimants’ case folders did not contain evidence that ODAR attempted to
contact the claimants, as required. These seven claimants did not return the form
acknowledging receipt of the hearing notice. 15 This form requests that claimants
provide their intentions for attending the hearing. 16 The ALJ may dismiss the hearing
request if the claimant has not returned the acknowledgment notice. However, before
issuing a dismissal for this reason, the ALJ should ensure all attempts to contact the
claimant are clearly documented. 17 Our review of the claimants’ case folders did not
identify evidence of ODAR’s attempts to contact these seven claimants. 18

13
  HALLEX I-2-4-25.A. An ALJ may dismiss a hearing request when neither the claimant who requested
the hearing nor the claimant’s representative appears at a scheduled hearing and neither shows good
cause for the absence.
14
   Of the 50 abandonment dismissals we reviewed, 8 claimants filed a new application for benefits. Four
claimants were denied benefits and four claimants had decisions pending at the time of our review. In
addition, two claimants appealed the dismissal to the Appeals Council. Both of these claimants’ cases
were remanded back to the ALJ and had decisions pending at the time of our review.
15
     Form HA-504 Acknowledgement of Notice of Hearing.
16
     HALLEX I-2-3-20.C.
17
     HALLEX I-2-4-25.C.2.b.
18
   In six of the seven cases, the Order of Dismissal alleged contact attempts, but there was no evidence
of these attempts in the claimants’ case folders. Therefore, we cannot determine whether these contact
attempts were actually made.


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)                    6
WITHDRAWAL DISMISSALS
We reviewed 50 cases dismissed in FY 2009 because the claimant withdrew the
hearing request. 19 However, one claimant’s case file did not contain evidence the
claimant wanted to withdraw the hearing request. 20 ODAR policy indicates that an ALJ
may dismiss a request for hearing, at the request of the claimant who filed the hearing
request, any time before mailing notice of the decision if certain conditions are met. For
example, the hearing request may be dismissed if the claimant or claimant’s
representative has submitted a signed request to withdraw the hearing request or made
such a request for withdrawal orally on the record at the hearing. 21

DISMISSAL RATES
We analyzed all dismissals issued in FY 2009 and found that dismissal rates varied
among ODAR regions, hearing offices, and ALJs. ODAR stated that scientific or
statistical data do not exist to support an explanation of dismissal rate variances.
Although ODAR stated economic and demographic factors may explain the variances, it
did not expand on those factors or how they impact variances in dismissal rates.

We found that dismissal rates varied among ODAR’s 10 regions. Specifically, dismissal
rates ranged from a low of 14 percent in the Dallas Region to a high of 23 percent in the
Kansas City Region (see Table 2).




19
   Of the 50 withdrawal dismissals we reviewed, 8 filed new applications for benefits. Two were allowed
benefits, one was denied, and five had decisions pending at the time of our review. In addition, two
claimants appealed to the Appeals Council where they had decisions pending at the time of our review.
20
  The Order of Dismissal alleged that the claimant’s representative requested the case be dismissed, but
there was no evidence of the request in the claimant’s case folder. Therefore, we cannot determine
whether this request was actually made.
21
     20 C.F.R. §§ 404.957 and 416.1457. HALLEX I-2-4-20.A.


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)                   7
                                                 Table 2
                                    Percent of Dismissals by Region 22
                                         Number of        Number of            Dismissal
                       Region
                                       Dispositions23    Dismissals 24           Rate
                  Kansas City                 31,463                7,216           23%
                  New York                    63,444               13,442           21%
                  Chicago                     94,614               16,493           17%
                  Philadelphia                74,289               12,149           16%
                  Boston                      22,866                3,681           16%
                  San Francisco               65,476               10,461           16%
                  Atlanta                    174,838               26,999           15%
                  Seattle                     17,940                2,677           15%
                  Denver                      17,675                2,673           15%
                  Dallas                      89,058               12,528           14%

We also found wide variances in dismissal rates within regions (see Table 3). For
example, one hearing office in the Kansas City Region had a dismissal rate of
15 percent while another hearing office in the region had a dismissal rate of 34 percent.
In fact, the Kansas City, Missouri, Hearing Office had the highest dismissal rate in the
Nation at 34 percent. 25

                                            Table 3
                    High and Low Dismissal Rates per Hearing Office by Region
                                            Hearing Office Dismissal Rates
                         Region
                                               High                 Low
                   Kansas City                         34%                    15%
                   New York                            33%                     5%
                   Philadelphia                        26%                    10%
                   Atlanta                             26%                     7%
                   Chicago                             26%                    10%
                   San Francisco                       24%                    11%
                   Boston                              23%                    14%
                   Dallas                              21%                    10%
                   Denver                              19%                    11%
                   Seattle                             18%                    10%

22
  This table does not include 9,162 dispositions, including 1,236 dismissals, issued by National Hearing
Centers or the National Screening Unit. These offices hold video hearings or issue on the record
decisions to assist hearing offices across the country.
23
   The data file we received from ODAR’s CPMS contained slightly fewer cases than ODAR identified in
its workload reports for FY 2009. However, this difference is immaterial.

24
   The number of dismissals includes all cases with a dismissal. Therefore, if a concurrent Title II and XVI
case had a favorable decision on one Title and a dismissal on the other Title; we counted the case as a
dismissal. According to SSA, this could have had an impact on dismissal rates by region and hearing
office since dismissals on concurrent cases are much more common than other dismissals. Specifically,
any region or hearing office that processed more than the average number of dismissals on concurrent
cases would most likely have a higher dismissal rate. However, we did not perform analysis to determine
the impact dismissals on concurrent cases had on dismissal rates by region or hearing office.
25
     See Appendix D for dismissal rates for all hearing offices.


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)                    8
We also identified a wide variance in dismissal rates by ALJ. Although 90 percent of
ALJs had dismissal rates of 25 percent or less, the dismissal rates by ALJ varied from
0 to 73 percent.

Of 1,176 ALJs in our review, 112 had dismissal rates between 26 and 73 percent. 26
However, 56 of the 112 ALJs were Hearing Office Chief Administrative Law Judges
(HOCALJ). It is ODAR’s procedure to assign HOCALJs cases that should receive a
favorable dismissal. 27 This may have resulted in these 56 HOCALJs having higher
dismissal rates than other ALJs. However, we are unaware of any reasons why the
remaining 56 ALJs would have disproportionately high dismissal rates.




26
 ODAR reports 1,182 ALJs in FY 2009. However, we limited this analysis to ALJs that issued 100 or
more dispositions in FY 2009 to ensure the ALJs processed a sufficient number for accurate analysis.
27
   Favorable dismissals are issued as a result of SSA’s Informal Remand initiative. Under this initiative,
cases are screened and remanded to DDS to determine whether an allowance can be issued without a
hearing. If the DDS can issue an allowance, a dismissal is issued at the hearing level. According to SSA,
the Informal Remand initiative could also impact region and hearing office dismissal rates. For example,
if a particular state had a lower or higher number of allowances after informal remands, these numbers
would have an impact on the dismissal rates for a particular region or hearing office. However, we did not
perform analysis to determine the impact the Informal Remand initiative on dismissal rates by region or
hearing office.


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)                 9
                                                                   Conclusions
We found that there were areas where improvements could be made for dismissing
hearing requests. For example, SSA needs to remind employees that the actions
taken to support dismissals should be documented in the claimants’ case folders. We
also found wide variances in dismissal rates among ODAR’s regions, hearing offices,
and ALJs. While variations in dismissal rates do not necessarily indicate improper
dismissals, SSA does not have scientific or statistical data that explains the dismissal
rate variances. Therefore, SSA would need to conduct a review to capture such data.




Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)    10
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Office of Disability Adjudication and Review Dismissal Types
APPENDIX D – Fiscal Year 2009 Dismissal Rates by Region and Hearing Office




Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)
                                                                           Appendix A

Acronyms
    ALJ                 Administrative Law Judge

    C.F.R.              Code of Federal Regulations

    CPMS                Case Processing and Management System

    DDS                 Disability Determination Services

    FY                  Fiscal Year

    HALLEX              Hearings, Appeals, and Litigation Law Manual

    HOCALJ              Hearing Office Chief Administrative Law Judge

    ODAR                Office of Disability Adjudication and Review

    POMS                Program Operations Manual System

    SSA                 Social Security Administration

    U.S.C.              United States Code




Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)
                                                                              Appendix B

Scope and Methodology
To address Senator McCaskill’s request related to Office of Disability Adjudication and
Review (ODAR) hearing request dismissals, we:

•   Reviewed applicable Federal laws and regulations and pertinent parts of the
    Hearings, Appeals, and Litigation Law Manual related to administrative law judge
    (ALJ) hearings.

•   Reviewed prior Office of the Inspector General, Government Accountability Office,
    and Social Security Advisory Board reports related to the ALJ hearings process.

•   Obtained all dispositions during Fiscal Year 2009 from ODAR’s Case Processing
    and Management System (CPMS).

•   Selected a sample of 50 cases each of untimely hearing request, abandonment, and
    withdrawal dismissals. 1 We reviewed documentation in the claimant’s case folders
    to determine whether ODAR followed applicable policies and procedures in
    dismissing hearing requests.

•   Analyzed dismissal rates by ODAR region, hearing office, and ALJ level.

•   Obtained information from ODAR regarding policies and procedures for dismissing
    hearing requests.

Our work was conducted at the Office of Audit in Kansas City, Missouri, from
September 2009 through February 2010. The entity audited was ODAR. We
determined that the data used in this report were sufficiently reliable given the review
objective and their intended use. We conducted our review in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspections.




1
 We had to replace 2 untimely hearing request dismissals and 1 abandonment dismissal in each sample
of 50 dismissals. Though they were originally selected in our samples, they were replaced when we
discovered they appeared to be miscoded in ODAR’s CPMS. The untimely hearing request dismissals
should have been coded as administrative dismissals while the abandonment dismissal should have been
coded as an untimely hearing request dismissal.


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)
                                                                                    Appendix C

Office of Disability Adjudication and Review
Dismissal Types

                                                                                           Number of
       Type of
                                          Dismissal Definition                             Dismissals
      Dismissal
                                                                                            FY 2009 1
                     The claimant did not appear for the hearing, and the
    Abandonment      administrative law judge (ALJ) did not find good cause for                46,675
                     failure to appear.
    Withdrawal       The claimant withdrew the hearing request.                                29,587
                     A lower level Social Security Administration (SSA)
    Favorable        component issued a revised favorable decision, rendering                  15,165
                     the need for a hearing moot.
    Untimely Hearing The hearing request was untimely, and the ALJ did not
                                                                                                6,155
    Request          find good cause for late filing.
                       The Appeals Council remanded an earlier application for
    Other                                                                                       3,328
                       the same claim and time period.
    Administrative     The claimant did not have a right to a hearing.                          3,234
    Death              The claimant died.                                                       2,534
    Special            Dismissal code used under management direction.                          2,254
                       SSA made a previous determination on the same facts
    Res Judicata                                                                                  664
                       and issues. The previous determination became final.
    Abandonment        The claimant did not appear for the pre-hearing
                                                                                                    54
    Pre-hearing        conference.
    Improper Party     An improper party filed the hearing request.                                 39
    Total                                                                                    109,689




1
  The Office of Disability Adjudication and Review (ODAR) reported 103,071 dismissals in Fiscal
Year 2009. We identified more than the ODAR reported number of dismissals for two reasons related to
concurrent Title II and XVI cases. First, ODAR counts dispositions based on the Title XVI disposition.
So, if the Title XVI decision in a concurrent case is favorable and the Title II disposition is a dismissal,
ODAR includes the case in the count of favorable decisions. However, we included the case as a
dismissal for our review. Second, concurrent cases can have different dismissal types for each title. For
example, the Title II disposition could be a withdrawal dismissal and the Title XVI disposition could be a
favorable dismissal. We counted each dismissal type for our analysis since each type has its own criteria.


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)
                                                                                    Appendix D

Fiscal Year 2009 Dismissal Rates by Region
and Hearing Office
                                                  Number of   Number of Dismissal
                     Location
                                                 Dispositions Dismissals 1 Rate
        Boston Region                                 22,866              3,681           16%
        Providence, RI                                 2,613                592           23%
        Portland, ME                                   2,961                500           17%
        Manchester, NH                                 2,499                401           16%
        Boston, MA                                     6,375                978           15%
        Springfield, MA                                3,090                456           15%
        Hartford, CT                                   2,946                430           15%
        New Haven, CT                                  2,372                324           14%
        Boston Regional Office Staff                      10                  0            0%
        New York Region                               63,444             13,442           21%
        Jericho, NY                                    4,918              1,623           33%
        Syracuse, NY                                   5,001              1,593           32%
        Bronx, NY                                      4,622              1,406           30%
        Buffalo, NY                                    6,540              1,760           27%
        Albany, NY                                     4,932              1,104           22%
        New York, NY                                   7,681              1,497           19%
        White Plains, NY                               2,516                489           19%
        Voorhees, NJ                                   3,902                738           19%
        Brooklyn, NY                                   7,266              1,327           18%
        Queens, NY                                     3,118                508           16%
        Newark, NJ                                     4,990                803           16%
        Ponce, PR                                      1,260                182           14%
        San Juan, PR                                   5,374                371            7%
        Mayaguez, PR                                     904                 41            5%
        New York Screening Unit                          420                  0            0%
        Philadelphia Region                           74,289             12,149           16%
        Philadelphia-E, PA                             4,522              1,154           26%
        Pittsburgh, PA                                 4,544              1,057           23%
        Philadelphia, PA                               4,844              1,031           21%
        Elkins Park, PA                                5,384              1,105           21%

1
  The number of dismissals includes all cases with a dismissal. Therefore, if a concurrent case had a
favorable decision on one title and a dismissal on the other title, we counted the case as a dismissal.

Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)                   D-1
                                            Number of   Number of Dismissal
                   Location
                                           Dispositions Dismissals 1 Rate
       Washington, D.C.                          2,476              471         19%
       Baltimore, MD                             4,732              812         17%
       Morgantown, WV                            3,463              558         16%
       Harrisburg, PA                            5,647              903         16%
       Johnstown, PA                             2,772              421         15%
       Cranberry, PA                             4,644              705         15%
       Roanoke, VA                               3,978              589         15%
       Wilkes-Barre, PA                          4,798              709         15%
       Dover, DE                                 2,239              321         14%
       Norfolk, VA                               3,194              455         14%
       Richmond, VA                              3,514              460         13%
       Charlottesville, VA                       2,849              337         12%
       Huntington, WV                            5,112              510         10%
       Charleston, WV                            5,577              551         10%
       Atlanta Region                          174,838           26,999         15%
       Miami, FL                                 3,279              838         26%
       Greensboro, NC                            5,894            1,434         24%
       Atlanta-N, GA                             5,597            1,205         22%
       Florence, AL                              3,657              784         21%
       Montgomery, AL                            6,026            1,265         21%
       Jacksonville, FL                          6,454            1,271         20%
       Charlotte, NC                             6,990            1,308         19%
       Mobile, AL                                6,953            1,277         18%
       Charleston, SC                            4,923              895         18%
       Raleigh, NC                               6,954            1,157         17%
       Nashville, TN                             4,845              802         17%
       Orlando, FL                               5,662              914         16%
       Fort Lauderdale, FL                       7,381            1,188         16%
       Columbia, SC                              5,156              817         16%
       Memphis, TN                               5,506              844         15%
       Tampa, FL                                 7,884            1,201         15%
       Savannah, GA                              4,856              724         15%
       Jackson, MS                               4,731              703         15%
       Greenville, SC                            6,618              935         14%
       Birmingham, AL                            8,908            1,244         14%
       Middlesboro, KY                           1,730              240         14%
       Knoxville, TN                             6,054              776         13%
       Chattanooga, TN                           6,036              748         12%
       Atlanta, GA                              10,132            1,192         12%


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)   D-2
                                            Number of   Number of Dismissal
                   Location
                                           Dispositions Dismissals 1 Rate
       Paducah, KY                               2,322              272         12%
       Lexington, KY                             5,606              652         12%
       Louisville, KY                            4,192              460         11%
       Tupelo, MS                                4,463              452         10%
       Hattiesburg, MS                           5,489              552         10%
       Macon, GA                                 4,825              444          9%
       Kingsport, TN                             5,715              405          7%
       Chicago Region                           94,614           16,493         17%
       Columbus, OH                              4,569            1,166         26%
       Grand Rapids, MI                          4,705            1,110         24%
       Dayton, OH                                2,871              655         23%
       Oak Park, MI                              6,058            1,336         22%
       Detroit, MI                               5,515            1,189         22%
       Oak Brook, IL                             5,036            1,074         21%
       Cleveland, OH                             6,702            1,317         20%
       Cincinnati, OH                            4,756              907         19%
       Milwaukee, WI                             5,211              985         19%
       Flint, MI                                 3,667              657         18%
       Lansing, MI                               3,719              644         17%
       Minneapolis, MN                           7,678            1,196         16%
       Chicago Video Center                        899              132         15%
       Indianapolis, IN                          5,665              827         15%
       Peoria, IL                                3,927              552         14%
       Chicago, IL                               4,994              687         14%
       Evanston, IL                              5,238              673         13%
       Madison, WI (Satellite)                     965              108         11%
       Orland Park, IL                           5,754              627         11%
       Evansville, IN                            3,082              319         10%
       Fort Wayne, IN                            3,232              332         10%
       Chicago Regional Office Staff                 2                0          0%
       Chicago Screening Unit                      369                0          0%
       Dallas Region                            89,058           12,528         14%
       Metairie, LA                              3,978              820         21%
       New Orleans, LA                           5,319              962         18%
       Dallas-N, TX                              7,199            1,162         16%
       Little Rock, AR                           7,649            1,205         16%
       Dallas-DT, TX                             6,960            1,026         15%
       Houston, TX                               5,473              796         15%
       Houston-DT, TX                            4,915              707         14%


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)   D-3
                                            Number of   Number of Dismissal
                   Location
                                           Dispositions Dismissals 1 Rate
       Alexandria, LA                            6,209              885         14%
       Shreveport, LA                            4,688              659         14%
       Fort Smith, AR                            3,054              410         13%
       Tulsa, OK                                 5,628              752         13%
       Fort Worth, TX                            4,996              643         13%
       McAlester, OK                             1,305              151         12%
       San Antonio, TX                           9,120            1,050         12%
       Oklahoma City, OK                         6,648              720         11%
       Albuquerque, NM                           5,683              580         10%
       Dallas Regional Office Staff                208                0          0%
       Dallas Screening Unit                        26                0          0%
       Kansas City Region                       31,463            7,216         23%
       Kansas City, MO                           5,275            1,780         34%
       Omaha, NE                                 2,475              585         24%
       Creve Coeur, MO                           6,621            1,449         22%
       Wichita, KS                               4,732            1,033         22%
       Springfield, MO                           2,611              562         22%
       St. Louis, MO                             6,125            1,248         20%
       West Des Moines, IA                       3,624              559         15%
       Denver Region                            17,675            2,673         15%
       Denver, CO                                5,232            1,007         19%
       Colorado Springs, CO                      3,359              548         16%
       Billings, MT                              2,809              437         16%
       Salt Lake City, UT                        3,541              385         11%
       Fargo, ND                                 2,734              296         11%
       San Francisco Region                     65,476           10,461         16%
       Los Angeles-DT, CA                        3,842              904         24%
       Downey, CA                                2,543              585         23%
       Pasadena, CA                              2,561              545         21%
       Los Angeles-W, CA                         3,845              803         21%
       San Diego, CA                             3,229              656         20%
       Oakland, CA                               3,289              564         17%
       San Bernardino, CA                        4,647              776         17%
       Las Vegas, NV                             1,588              250         16%
       Orange, CA                                3,895              596         15%
       Long Beach, CA                            4,022              592         15%
       Phoenix, AZ                               5,029              704         14%
       San Jose, CA                              2,763              376         14%
       San Francisco, CA                         3,777              508         13%


Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)   D-4
                                            Number of   Number of Dismissal
                   Location
                                           Dispositions Dismissals 1 Rate
       Stockton, CA                              3,426              456         13%
       Sacramento, CA                            5,724              741         13%
       Santa Barbara, CA                         1,639              212         13%
       Fresno, CA                                3,695              473         13%
       Tucson, AZ                                2,976              370         12%
       San Rafael, CA                            2,282              270         12%
       Honolulu, HI                                701               80         11%
       San Francisco Screening Unit                  3                0          0%
       Seattle Region                           17,940            2,677         15%
       Seattle, WA                               7,990            1,402         18%
       Eugene, OR                                2,660              389         15%
       Portland, OR                              4,061              556         14%
       Spokane, WA                               3,229              330         10%




Office of Disability Adjudication and Review Hearing Request Dismissals (A-07-10-21049)   D-5
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
